HHS/OIG, Audit -"Review of Humana Health Plan of Texas, Inc.'s Modifications to Its 2001
Adjusted Community Rate Proposal Under the Benefits Improvement and Protection Act of 2000,"(A-06-03-00027)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Humana Health Plan of Texas, Inc.'s Modifications
to Its 2001 Adjusted Community Rate Proposal Under the Benefits Improvement and Protection Act of 2000," (A-06-03-00027)
July 8, 2005
Complete
Text of Report is available in PDF format (288 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This is one of a series of reports on Medicare+Choice organizations use of the
additional funding provided by the Benefits Improvement and Protection Act of 2000 (BIPA).  Our
objectives were to determine whether Humana (1) supported the $7.8 million of additional capitation
payments and used the funds in a manner consistent with BIPA requirements and (2) supported the $6.6
million cost increase that was not related to the BIPA funding increase.  Of the $7.8 million
BIPA capitation payment increase in Humanas revised proposal, $2.6 million was properly supported
and was used in a manner consistent with BIPA requirements.  However, the remaining $5.2 million
was unsupported; therefore, we could not determine whether it was used in a manner consistent with
BIPA requirements.  Additionally, of the $6.6 million increase in direct medical care costs that
was not related to the BIPA funding increase, $1.3 million was supported.  The remaining $5.3
million was unsupported.
We recommended that Humana:  (1) work with CMS to determine how much of the $5.2
million BIPA capitation payment increase was used in a manner consistent with BIPA requirements and
refund any amount not used in such a manner, (2) work with CMS to determine what remedies are needed
to address the $5.3 million of unsupported increases unrelated to the BIPA funding increase, and (3)
ensure that estimated costs in future proposals are properly supported.  In response to our report,
Humana did not directly address our recommendations but did provide additional documentation.